No. 19A-___

In the Supreme Court of the United States
__________
JOSEPH A. ZADEH and JANE DOE,
Applicants,
v.
MARI ROBINSON, et al.,
Respondents.
__________
APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

__________
TO THE HONORABLE SAMUEL A. ALITO, JR., ASSOCIATE JUSTICE AND CIRCUIT JUSTICE
FOR THE FIFTH CIRCUIT:
Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of the Rules of this Court,
applicants Dr. Joseph A. Zadeh and his patient, Jane Doe, respectfully request a 30day extension of time, to and including October 30, 2019, within which to file a
petition for a writ of certiorari to review the judgment of the United States Court of
Appeals for the Fifth Circuit in this case. The Fifth Circuit denied a timely request
for rehearing en banc on July 2, 2019. Unless extended, the time to file a petition for
a writ of certiorari will expire on September 30, 2019. The jurisdiction of this Court
will be invoked under 28 U.S.C. § 1254(1).
A copy of the Fifth Circuit’s original opinion is attached as Exhibit A. A copy
of the substitute opinion filed by the panel on applicants’ petition for rehearing en
banc is attached as Exhibit B.

2
1. This case arises from an incident that took place in Euless, Texas in 2013.
Dr. Zadeh was the subject of an investigation by the Drug Enforcement Agency (DEA)
for violations of the Texas Medical Board’s regulations. Ex. B, at 2. Dr. Zadeh was
also the subject of an administrative proceeding before the State Office of
Administrative Hearings. Ibid.
Respondents Sharon Pease and Kara Kirby, investigators with the Board,
attempted to serve an administrative subpoena at Dr. Zadeh’s office on October 22,
2013, requiring the immediate production of Dr. Zadeh’s patients’ medical records.
Ex. B, at 2-3. They were accompanied by two DEA agents. Id. at 3. Dr. Zadeh was not
present when the investigators arrived, so they handed the subpoena to his assistant.
Ibid. While the investigators sat in the waiting room, Dr. Zadeh’s assistant spoke
with Dr. Zadeh, his lawyer, and his brother. Ibid. No permission to proceed was given
by the assistant, but following the phone calls, the investigators told her that they
would suspend Dr. Zadeh’s medical license if she did not produce the records they
requested. Ibid. The assistant complied and delivered the records to the investigators.
Ibid.
2. Dr. Zadeh, along with one his patients, sued respondents pursuant to 42
U.S.C. § 1983, asserting violations of the Fourth Amendment. Ex. B, at 2. The district
court granted respondents’ motion for summary judgment on qualified immunity
grounds. Ibid.
3. The court of appeals affirmed. The panel held that respondents’ conduct
could not be justified as a valid warrantless administrative search, and thus that

3
“there was a violation of Dr. Zadeh’s constitutional rights.” Ex. A, at 12. However, the
panel concluded, “the unlawfulness of [respondents’] conduct was not clearly
established at the time of the search,” and respondents were therefore shielded by
qualified immunity. Id. at 15.
Judge Willett initially concurred dubitante, “writ[ing] separately to register
[his] disquiet over the kudzu-like creep of the modern immunity regime.” Ex. A, at
21. He agreed with the panel that Dr. Zadeh’s Fourth Amendment rights were
violated, but decried the fact that “[o]wing to a legal deus ex machina—the ‘clearly
established law’ prong of qualified immunity analysis—the violation eludes
vindication.” Ibid. See also id. at 23 (“The current ‘yes harm, no foul’ imbalance leaves
victims violated but not vindicated; wrongs are not righted, wrongdoers are not
reproached, and those wronged are not redressed.”).
4. Applicants petitioned for rehearing en banc. On rehearing, the panel
withdrew its prior opinion and issued a new one, adding further analysis but
maintaining its conclusion that while “there was a violation of Dr. Zadeh’s
constitutional rights,” “the unlawfulness of the defendants’ conduct was not clearly
established at the time of the search.” Ex. B, at 1, 13, 18.
This time, Judge Willett dissented in relevant part: “[D]eeper study has
convinced me that the officials’ constitutional misstep violated clearly established
law, not a previously unknown right. And it has reaffirmed by broader conviction that
the judge-made immunity regime ought not be immune from thoughtful reappraisal.”
Ex. B, at 25-26.

4
5. The petition for certiorari will demonstrate that review is warranted on at
least the following question: whether the doctrine of qualified immunity should be
narrowed or revisited entirely.
Indeed, there is “growing concern” about the lawfulness of qualified immunity
among judges, scholars, and Justices of the Court. Ziglar v. Abbasi, 137 S. Ct. 137 S.
Ct. 1843, 1870 (2017) (Thomas, J., concurring in part); see also, e.g., id. at 1872 (“Until
we shift the focus of our inquiry to whether immunity existed at common law, we will
continue to substitute our own policy preferences for the mandates of Congress. In an
appropriate case, we should reconsider our qualified immunity jurisprudence.”); Ex.
A, at 23-24 (Willett, J., concurring dubitante) (“I add my voice to a growing, crossideological chorus of jurists and scholars urging recalibration of contemporary
immunity jurisprudence and its real world implementation.”) (quotation marks
omitted); William Baude, Is Qualified Immunity Unlawful?, 106 Cal. L. Rev. 45, 4649 (2018) (answering that question in the affirmative); Joanna C. Schwartz, The Case
Against Qualified Immunity, 93 Notre Dame L. Rev. 1797, 1799 (2018) (“If the Court
did find an appropriate case to reconsider qualified immunity * * * the Court could
not justify the continued existence of the doctrine in its current form.”).
6. Good cause exists for an extension of time to prepare a petition for a writ of
certiorari in this case. Undersigned counsel of record was retained only recently and
has not yet had an opportunity to familiarize himself with the full record and issues
involved. Undersigned counsel also has several other matters with proximate due
dates before this Court, including a reply in support of certiorari due on September

5
23, 2019, in Nasrallah v. Barr, No. 18-1432; a petition for a writ of certiorari due on
October 3, 2019, in Texas Brine Company. v. Florida Gas Transmission Company, et
al., No. 19A-106; oral argument on October 16, 2019, in Kansas v. Garcia, No. 17-834;
and a merits reply brief due on November 20, 2019, in Guerrero-Lasprilla v. Barr, No.
18-776, and Ovalles v. Barr, No. 18-1015.
For the foregoing reasons, the application for a 30-day extension of time, to and
including October 30, 2019, within which to file a petition for a writ of certiorari in
this case should be granted.
September 16, 2019

Respectfully submitted.

____________________________
PAUL W. HUGHES
Counsel of Record
McDermott Will & Emery LLP
500 North Capitol Street, NW
Washington, DC 20001
(202) 756-8000
phughes@mwe.com

